HHS/OIG, Audit -"Review of Medicare Payments For Beneficiaries With Institutional Status - Maricopa Count Health Plan,"(A-05-97-00018)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments For Beneficiaries With Institutional Status - Maricopa Count Health Plan," (A-05-97-00018)
February 20, 1998
Complete
Text of Report is available in PDF format (51 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if Medicare payments to Maricopa Health Plan were appropriate for beneficiaries
reported as institutionalized.  We found that Medicare payments to Maricopa for beneficiaries reported as institutionalized
were generally correct.  Our results are based on a statistical sample of 100 Medicare beneficiaries reported as institutionalized
during the period October 1, 1994 through September 30, 1996.  We determined the beneficiaries in our sample were
correctly reported as institutionalized, with the exception of minor errors.  The positive results are attributed
to Maricopa's procedures for verifying the institutional status of its beneficiaries.